OIG Investigative Reports, PSJA ISD Trustee Pleads Guilty in Bribery Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
FOR IMMEDIATE RELEASE
November 3, 2008
Angela Dodge
Public Affairs Officer
(713) 567-9388
www.usdoj.gov/usaotxs
United States Attorney's Office
Southern District of Texas
Donald J. DeGabrielle, Jr
United States Attorney
PSJA ISD Trustee Pleads Guilty in Bribery Scheme
(McALLEN, Texas) – Long-time Pharr San Juan Alamo Independent School District (PSJA-ISD) trustee Raul "Roy" Navarro has pleaded guilty to bribery related to his official position with the school district, United States Attorney Don DeGabrielle announced today. Navarro, 59, of San Juan, Texas, was indicted in June 2007 along with then-PSJA trustees Rogelio "Roy" Rodriguez and Evangelina "Vangie" De Leon and former superintendent Arturo Guajardo and others. He pleaded guilty this afternoon before U.S. District Judge Ricardo Hinojosa.
At his re-arraignment hearing, Navarro admitted he accepted a trip to Las Vegas, Nev., and tickets to a concert there from a contractor engaged in business with the school district in August 2002 in exchange for favorable, official votes and influence regarding PSJA-ISD contracts. PSJA-ISD is a large school district which receives substantial federal funds and is located in Hidalgo County, Texas.
Navarro faces a maximum sentence of 20 years in federal prison, without parole, and a maximum fine of $250,000 at a sentencing hearing set for Feb. 19, 2009. Navarro has been permitted to remain free on bond pending his sentencing hearing.
The case was investigated by agents with the McAllen Office of the FBI, the McAllen office of the Criminal Investigations Division of the Internal Revenue Service and the Dallas office of the Department of Education––Office of the Inspector General. The case is being prosecuted by Assistant United States Attorney Larry Eastepp of the Public Corruption Section of the U.S. Attorney”s Office.
#####
Top
Printable view
Share this page
Last Modified: 11/06/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov